GN

C@OCKLE

2311 Douglas Street + E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-968

CHIKE UZUEGBUNAM, ET AL.,
Petitioners,
Vv.
STANLEY C. PRECZEWSKI, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule-33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 6533 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

Q a f
perme | Kone. 0. Loos Qudraw-h. Chl

O lo
Notary Public 7 Affiant 39626

My Comm. Exp. September 5, 2023

 

 
